<html>
<title> - NOMINATION OF LARRY J. ECHO HAWK TO BE ASSISTANT SECRETARY FOR INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 111-97]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-97
 
 NOMINATION OF LARRY J. ECHO HAWK TO BE ASSISTANT SECRETARY FOR INDIAN 
                AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

=======================================================================



                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 7, 2009

                               __________

         Printed for the use of the Committee on Indian Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
52-367                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
_____, _____
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 7, 2009......................................     1
Statement of Senator Barrasso....................................    40
Statement of Senator Bennett.....................................     7
Statement of Senator Conrad......................................     8
Statement of Senator Crapo.......................................     6
Statement of Senator Dorgan......................................     1
Statement of Senator Inouye......................................     4
Statement of Senator McCain......................................    44
Statement of Senator Tester......................................    43
Statement of Senator Udall.......................................    39

                               Witnesses

Coby, Hon. Alonzo, Chairman, Fort Hall Business Council for the 
  Shoshone-Bannock Tribes........................................     9
    Prepared statement...........................................    10
Echo Hawk, Larry J., Nominee to be Assistant Secretary for Indian 
  Affairs, U.S. Department of the Interior.......................    11
    Prepared statement...........................................    13
    Biographical information.....................................    16

                                Appendix

Echo Hawk, Larry J., Brigham Young University devotional address.    51
Response to written questions submitted to Larry J. Echo Hawk by:
    Hon. Daniel K. Akaka.........................................    71
    Hon. John Barrasso...........................................    64
    Hon. Maria Cantwell..........................................    72
    Hon. Tom Coburn, M.D.........................................    74
    Hon. Byron L. Dorgan.........................................    57
    Hon. Dianne Feinstein........................................    84
    Hon. John McCain.............................................    75
    Hon. Jon Tester..............................................    78
    Hon. Tom Udall...............................................    82
Letters, in support of the nomination of Larry J. Echo Hawk:
    American Indian Law Center, Inc..............................    86
    California Indian Legal Services.............................    88
    Cherokee Nation..............................................    90
    Confederate Salish and Kootenai Tribes of the Flathead 
      Reservation................................................    96
    Confederate Tribes of Coos, Lower Umpqua, and Siuslaw Indians    99
    Ewiiaapaayp Band of Kumeyaay Indians.........................   100
    Kootenai Tribe of Idaho......................................   101
    Menominee Indian Tribe of Wisconsin..........................   102
    Mohegan Tribe of Indians.....................................   103
    National Congress of American Indians........................    91
    National Indian Education Association........................    94
    Osage Nation.................................................   104
    Pawnee Nation of Oklahoma....................................   105
    Poarch Band of Creek Indians.................................    95
    Pueblo of Jemez..............................................   106
    Puyallup Tribe of Indians....................................   110
    Salt River Pima-Maricopa Indian Community....................    98
    Tlingit and Haida Indian Tribes of Alaska....................   111
    Tulalip Tribes...............................................   112
    United South and Eastern Tribes, Inc.........................    89


 NOMINATION OF LARRY J. ECHO HAWK TO BE ASSISTANT SECRETARY FOR INDIAN 
                    AFFAIRS, U.S. DEPARTMENT OF THE 
                                INTERIOR

                              ----------                              


                         THURSDAY, MAY 7, 2009


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:20 p.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I bring this Committee to order. This is a 
hearing of the Indian Affairs Committee in the United States 
Senate. We are gathered today to examine the President's 
nomination of Larry Echo Hawk to serve as Assistant Secretary 
for Indian Affairs at the Department of Interior.
    We have a vote occurring right now, so some of our 
colleagues will be delayed just a bit, but we appreciate the 
opportunity to have Mr. Echo Hawk with us today.
    Let me just remind my colleagues that Yvette Roubideaux 
last evening was confirmed as the head of the Indian Health 
Service. We reported that nomination out of this Committee last 
week, so last evening that nomination was confirmed by the 
United States Senate. That is a very important thing to have 
happen. I am so pleased that she is willing to serve.
    And not only is she confirmed now by the United States, but 
today we take up the nomination of Larry Echo Hawk. My hope 
would be that this Committee will be able to following today 
receive all of the papers that have been sent to us, and at the 
business meeting next week now scheduled for this Committee, 
take action on Mr. Echo Hawk's nomination and then move it to 
the floor of the Senate where I hope it can be acted on very 
quickly.
    I want to state at the start of this hearing my strong 
support for Mr. Echo Hawk's nomination. He has a strong 
background in Indian affairs managing the legal team and legal 
issues for the State of Idaho as Attorney General, and he has 
dedicated his career to education and to the improvement of the 
lives of Indian people.
    A background in education, public safety and management are 
sorely needed at the Office of the Assistant Secretary for 
Indian Affairs. I have spoken previously from this dais about 
the unbelievable bureaucracy that exists in the Bureau of 
Indian Affairs. I have sometimes described dealing with the BIA 
very much like walking through wet cement. It is pretty slow 
going.
    I want the BIA to work. I want it to work well for the 
benefit of the first Americans, American Indians. And we have 
had I think in the last eight years, half of those years we 
have been without an Assistant Secretary to run the BIA. That 
is just a tragic failure.
    And so I am strongly supportive of Mr. Echo Hawk, and want 
him to be confirmed as soon as possible to take the reins at 
the BIA and begin a significant management effort to use the 
funding that is available to improve the lives of American 
Indians.
    I just was looking at four of the past eight years that we 
have not had an Assistant Secretary. It is even more shameful.
    The United States Government holds treaty and trust 
responsibilities and obligations to Indian tribes and the 
Office of the Assistant Secretary for Indian Affairs is the 
primary official in the Department of the Interior that is 
tasked with upholding these obligations. Through oversight of 
the BIA and other offices, the Assistant Secretary is 
responsible for providing education services, public safety, 
and economic opportunity to the Country's 562 Indian tribes.
    Sadly, it is news to no one that many tribal communities 
lag far behind the rest of the Nation in all three of those 
categories. It is I think a very difficult situation to take a 
look at education, housing and health care on a lot of 
reservations and understand that the first Americans are often 
getting second choice in education, housing and health care, 
and that should not be the case.
    I had a long discussion with Mr. Echo Hawk about the issue 
of health care, education and housing. Health care, of course, 
is principally Indian Health Service, but the BIA will also 
play a role in that. We also talked about the issue of justice 
and law enforcement, on which this Committee has held hearings.
    The lack of economic opportunity on Indian reservations is 
also very significant. We have unemployment rates averaging 50 
percent for decades. In the Great Plains region, the 
reservation unemployment is over 70 percent. This chart shows 
some of those numbers. And we need to change that.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I am confident that Mr. Echo Hawk will provide the 
leadership that the BIA has needed for far too long. His 
nomination has the support of the National Congress of American 
Indians, many Indian tribes and organizations, and as this 
Committee will soon hear, he has strong support from Members of 
the United States Senate.
    Before I recognize the Vice Chairman, I want to clarify the 
process again for moving forward with the nomination. Mr. Echo 
Hawk, Members of this Committee will hear your testimony, your 
statement today, following which we will ask questions of you 
this afternoon and perhaps more will be submitted to you in 
writing. Once we have received responses to those questions, 
which I would hope would be in a day or two, we will seek to 
report out your nomination at the next scheduled business 
meeting.
    I have not consulted with all the Members of the Committee 
on that yet, but my hope would be and my expectation would be 
that we would be able to do that.
    The Chairman. We are joined by the Vice Chairman of the 
Committee, Senator Barrasso. Let me recognize Senator Barrasso 
for an opening statement.
    Senator Barrasso. Thank you, Mr. Chairman.
    I do have an opening statement with a number of colleagues 
here who I know their time is limited, I would like to defer to 
them with your permission, Mr. Chairman.
    The Chairman. Without objection.
    And let me say that we have Senator Inouye with us, the 
former Chairman of this Committee. We are delighted he is here. 
And then Senator Crapo and Senator Bennett both wish to make 
statements as well.
    So Senator Inouye, you, I believe, have to be at the 
Capitol at 2:30. Let me recognize you, and welcome you again to 
the Committee.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman and 
Members of the Committee.
    I am honored to present to the Committee a very 
distinguished American who was just nominated by the President 
of the United States to serve as Assistant Secretary for Indian 
Affairs in the U.S. Department of the Interior, Mr. Larry Echo 
Hawk.
    Mr. Chairman, I have known the members of the Echo Hawk 
family for over two decades. I first came to know Larry Echo 
Hawk's older brother John, who has had a long and distinguished 
career serving the native people of this land, including his 
service as the Executive Director of the Native American Rights 
Fund.
    Then I met John's and Larry's sister Lucille, who I believe 
still works with the Casey Family Foundation on the critically 
important matters associated with Indian child welfare.
    And then just about 20 years ago, I had the privilege of 
meeting Larry Echo Hawk, who was then serving as the Attorney 
General of Idaho, and who to the best of my knowledge was the 
first Native American to serve as Attorney General in any of 
our 50 States.
    And at that time, this Committee was engaged in ongoing 
dialogue with Governors and Attorneys General from the States 
in which Indian gaming was being conducted under the Indian 
Gaming Regulatory Act and tribal government leaders from each 
of these States.
    In the course of that year-long effort, I came to know a 
few of the Attorneys General such as the distinguished Senator 
from New Mexico and a Member of this Committee, Senator Tom 
Udall, who was then serving as Attorney General of New Mexico. 
We spent a lot of time together over that year, and from Tom 
and others I learned that a very interesting dynamic had taken 
place when Larry Echo Hawk first joined the ranks of the 
States' chief legal officers.
    I was told at first the Attorneys General were a bit 
uncomfortable about having a person of Indian descent in their 
midst. After all, relations between the State and tribal 
governments had not always been the best, to say the least. And 
other Attorneys General readily acknowledged that their 
discussions about their relations with Indian Country were not 
always filled with happiness.
    But apparently as these Attorneys General came to know 
Larry Echo Hawk, they realized that some of their perceptions 
of Indian people and Indian Country were not based on personal 
experience, but based on something closer to biased cultural 
stereotypes. They told me that Larry's integrity and 
intelligence had impressed them and that they had come to know 
him as an Attorney General who was not so different than they 
were, and who clearly felt that his responsibility as chief 
legal officer of Idaho was to all the citizens, all the 
citizens of the State of Idaho.
    The fact that Larry was of native ancestry was not 
something that Larry brought to the table, but over time the 
fact that his native ancestry helped him become more sensitive 
to how they spoke about Indian people and how they interacted 
with tribal leaders.
    Each of the Members of this Committee have all of Echo 
Hawk's biographical information and his record of professional 
experience before us, so I will not take your time to repeat 
what is known about this person.
    But for those of you in the audience today, I think you 
should know that Larry Echo Hawk earned his law degree in 1973 
from the University of Utah, and following graduate business 
studies at Stanford. Larry began his legal career working for 
the California Indian Legal Services Program, and thereafter 
worked for the Shoshone-Bannock Tribes of the Fort Hall Indian 
Reservation for eight years.
    I mention this aspect of his early professional life 
because I believe that Larry Echo Hawk is not only a man who is 
deeply rooted in the values that we all share and respect, but 
a man who understands the many challenges that Indian Country 
has been confronted with throughout our long history as a 
Nation.
    Larry Echo Hawk is an enrolled member of the Pawnee Tribe 
and like so many of our great Indian leaders, he volunteered 
his service to our Country in the U.S. Marine Corps. For the 
past 14 years, Larry Echo Hawk has served as a law professor on 
the faculty of the J. Reuben Clark Law School at Brigham Young 
University. A review of his published works over the past 17 
years makes very clear that Larry has always remained deeply 
interested in and committed to addressing issues of importance 
and concern to Indian Country.
    I believe that Larry Echo Hawk is extraordinarily well 
prepared by his life experience and his long professional 
career in the law to serve as Assistant Secretary for Indian 
Affairs in President Obama's Administration. And therefore I am 
delighted and proud today to have the honor of introducing 
Larry Echo Hawk to the Members of this Committee.
    Thank you, Mr. Chairman.
    The Chairman. Senator Inouye, thank you very much.
    Again, you serve on this Committee, but have been Chairman 
for many years of this Committee and your thoughts and advice 
are really valuable to us. We appreciate very much your 
testimony.
    Senator Inouye. I would like to have your permission, Mr. 
Chairman, to leave because I have another meeting to attend, 
and I regret I can't stay here.
    The Chairman. We thank you very much for being here, 
Senator Inouye.
    Senator Inouye. Thank you.
    The Chairman. Senator Crapo, who is a personal friend from 
Idaho, I am going to call on him, and then Senator Bennett to 
discuss a fellow Utahan.
    So let me call on the two of them who have requested the 
opportunity to speak.

                 STATEMENT OF HON. MIKE CRAPO, 
                    U.S. SENATOR FROM IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman, Senator 
Barrasso. I truly appreciate the opportunity to introduce my 
personal friend, Larry Echo Hawk, today to the Committee on 
this important occasion.
    I am pleased that President Obama has nominated Larry for 
the important position of Assistant Secretary of Interior for 
Indian Affairs. Our fellow Idahoans are rightly proud that some 
of his greatest political and professional successes have been 
during his time in Idaho, and I congratulate Larry and his wife 
Terry and their children and grandchildren on this distinct 
honor for this selection.
    Larry's diverse background and professional experiences 
make him an outstanding candidate for this position. Although 
his Pawnee Tribe background has made him many times a first in 
elective office, Larry's real legacy is the high regard in 
which he is held by so many who have worked with him.
    Larry served as Bannock County Prosecuting Attorney and as 
a two-term member of the Idaho State House of Representatives. 
He and I served in the State Legislature together, he as a 
member of the House and I as a member of the Senate, until the 
time that he then ran for and was elected to be the Attorney 
General of the State of Idaho.
    And I remember times sitting down at dinner after a 
legislative session in Boise, Idaho and talking about how to 
improve government, just as Larry and I have the opportunity to 
do so a couple of nights ago here in Washington, D.C.
    I know him and his work well, and his commitment. I am very 
confident in his service.
    Since his time in elective office, Larry has taught 
criminal law and Native American law at Brigham Young 
University, which is our alma mater, where I understand you 
also played football. And Larry is also the Senior Partner of 
the Echo Hawk Law Offices, which have among their clients the 
Shoshone-Bannock Tribe of Fort Hall Indian Reservation in 
Idaho, to which you have been I think General Counsel since 
1977.
    The challenge for the Bureau of Indian Affairs remains the 
same as it ever was: to do as much as possible to fulfill the 
trustee responsibility of the Federal Government for the Native 
Americans. Unfortunately, I agree with the Chairman. While so 
much has been done, for too long now this trustee 
responsibility has suffered through periods characterized by 
confusion, neglect, underfunding, conflict and 
miscommunication.
    While much has been done in recent years to address the 
historic problems plaguing the Bureau-administered programs, so 
much more needs to be done. Per person outlays for tribal 
health services, while never a perfect measure of a program's 
effectiveness, lag well behind comparative funding through 
Medicare and Medicaid. Investments in tribal education, 
justice, housing and transportation are also chronically short-
changed.
    And I realize we can't expect that Larry will change this 
overnight, but I am confident that he will make great strides 
in improving this circumstance, and look forward to working 
with him.
    Funding issues are not the only way to help our tribes. 
Appropriate respect for sovereignty is also a persistent 
challenge that the Federal Government can help promote by 
example. In our State, the federally recognized tribes have 
demonstrated tribal capacity to be a real player in problem 
solving.
    The Nez Perce Tribe provides the monitoring of wolf 
recovery on behalf of the Federal and State governments. The 
Kootenai Tribe is the first tribe to sign an MOU with the 
Department of Homeland Security to use its identity cards for 
valid cross-border travel, and manages important salmon 
hatcheries that help us recover endangered fish stocks.
    The Shoshone-Paiutes in Southwest Idaho played a major part 
in bringing to fruition to Owyhee Initiative Management statute 
that we just passed here in the Senate. The Coeur d'Alene Tribe 
remains a major partner in the implementation of the Lake 
Management Plan for Coeur d'Alene. And the Shoshone-Bannock 
Tribes, as Larry knows well, are a major leader in the 
environmental protection of Southeast Idaho.
    Mr. Chairman and Members of the Committee, I believe Larry 
Echo Hawk has the background and the temperament to bring 
proper attention to the needs and the problems facing our 
Nation's tribes. His service in the public and in the private 
sector, as well as his role as a Native American pioneer, 
demonstrate the capacity to do well in the difficult position 
of Assistant Secretary for Indian Affairs.
    As a fellow Idahoan and an advocate for Idaho's tribes, I 
am pleased to present Larry Echo Hawk to the Committee for 
Senate consideration. If he is confirmed, I look forward to 
working with him again in his new position to promote the needs 
of Native Americans.
    Thank you very much, Mr. Chairman.
    The Chairman. Senator Crapo, thank you very much.
    Senator Bennett?

             STATEMENT OF HON. ROBERT F. BENNETT, 
                     U.S. SENATOR FROM UTAH

    Senator Bennett. Thank you for the opportunity, Mr. 
Chairman, to be with you.
    You have heard the background of the nominee. I would just 
point out that he first came to Utah to play football at BYU on 
a scholarship, and then he earned his juris doctor from the 
University of Utah. That is a little like playing for Harvard 
and then getting your law degree from Yale, or going to UCLA 
and then graduating from USC. Whatever. And if he can bridge 
that gap, he is qualified to negotiate just about anything.
    [Laughter.]
    Senator Bennett. So he has had a distinguished career in 
Idaho, as has been described, but he is also had a 
distinguished teaching career in Utah at the J. Reuben Clark 
Law School at Brigham Young.
    So he brings a wide range of skills and activities to this. 
It is not just his training. It is his life experience that I 
think qualify him for this. And I expect he will bring a fresh 
approach to the department. There are not too many people who 
serve in the Executive Branch who have won an election, first 
to a State legislature and then to an executive assignment as 
Attorney General. Understanding those aspects of government is 
an experience that I think will serve him very well now that he 
is at the Federal level.
    He has an understanding of the differences between tribal 
rights and sovereignty and States' rights. He has represented 
tribes as an advocate, and then has dealt with the problems 
himself as a teacher as he has had to look at all of the 
aspects of it.
    So I consider him a dedicated public servant and an 
excellent choice for this assignment, and I am pleased on 
behalf of his friends and colleagues in the State of Utah to 
add my voice to the chorus that is saying let's get him 
confirmed and in place as quickly as we possibly can.
    The Chairman. Senator Bennett, thank you.
    Senator Conrad?

                STATEMENT OF HON. KENT CONRAD, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Just very briefly, Mr. Chairman.
    First of all, thank you for holding this hearing. This is a 
position that has been open now for about a year, so it is 
critically important that we act quickly and that we get this 
right. I think with the nomination of Larry Echo Hawk, we have 
the chance to get this right.
    I have been very impressed by what I have learned of his 
reputation and his professional career. That is just confirmed 
by hearing from our colleagues, Senator Crapo who knows him 
personally, and of course Senator Bennett from Utah, a State 
where Mr. Echo Hawk has been so involved.
    I had a chance to meet with Mr. Echo Hawk yesterday and we 
talked about a whole series of issues critically important in 
Indian Country in my State, but more than just my State, across 
the Country as well: education, economic development, health 
care, housing, energy development. These issues, along with law 
enforcement and many others, we had a chance to visit about 
yesterday.
    One of the things I would like to say to Mr. Echo Hawk is 
we just had Secretary Salazar come to our State last month, and 
had a meeting with the leaders of our tribes. He had a first-
hand chance to see the challenges that we are confronting in 
North Dakota. I hope after your confirmation that at an early 
opportunity you will have a chance to come to our State and 
visit personally. We would certainly welcome you.
    I really am encouraged that somebody of your quality and 
your character is willing to take up this challenge. I believe 
this is one of the toughest jobs in Federal Government. I said 
that to you yesterday, and I think you are equal to it.
    So all of us I think are willing and eager to work with you 
to make improvements and to have a significant step forward for 
Indian Country. I know I certainly have that feeling, and again 
thank you, Mr. Echo Hawk, for being willing to take on this 
responsibility.
    The Chairman. Senator Conrad, thank you very much.
    Mr. Echo Hawk, we will get to you, but first we are going 
to hear from the Chairman of the Shoshone-Bannock Tribe in Fort 
Hall, Idaho, the Honorable Alonzo Coby.

  STATEMENT OF HON. ALONZO COBY, CHAIRMAN, FORT HALL BUSINESS 
            COUNCIL FOR THE SHOSHONE-BANNOCK TRIBES

    Mr. Coby. Good afternoon, Chairman Dorgan, Vice Chairman 
Barrasso, Senator Crapo and other Members of the Committee.
    Again, I am Alonzo Coby. I am the Chairman of the Fort Hall 
Business Council, which is a governing body of the Shoshone-
Bannock Tribes located in Southeastern Idaho. Our enrolled 
membership is 5,300 tribal members and our reservation is 
544,000 acres of land, of which 98 percent is held in trust 
status. We are very proud of that.
    The reason I am here today, I am very honored and 
privileged to introduce and express strong support for the 
nomination of Larry Echo Hawk as Assistant Secretary for Indian 
Affairs. As you know, the United States Government and its 
agencies have an important trust relationship with Indian 
tribes. The Shoshone-Bannock Tribes look forward to the Federal 
Government to fulfill its trust responsibilities in the areas 
of environmental protection, law enforcement, health, 
education, trust reform, treaty rights, and other important 
areas.
    The issues I mention are pressing issues in Indian Country 
and the Assistant Secretary for Indian Affairs plays a critical 
role in addressing these issues. Larry is uniquely qualified 
for this job. The Shoshone-Bannock Tribes fully support Larry. 
I know the other Idaho tribe also support his nomination.
    Larry began representing the Shoshone-Bannock Tribes in 
1977 and served for nearly nine years as the tribe's Chief 
Counsel. He provided diligent and faithful services during 
these years and has his boys, Paul and Mark, and I am very 
blessed to have the as our legal counsel.
    During his time as the tribal attorney, he also served two 
terms in the Idaho legislature and worked hand in hand with the 
Idaho tribal leaders in Idaho to advance tribal interests. 
Larry played a significant role in the Idaho legislature on 
passage of many laws that respected tribal sovereignty such as 
the Tribal-State Relations Act, Federal Site Protections Act, 
and legislation to authorize State agencies to enter into 
agreements with tribal governments.
    Much of this was brought about due to his efforts to create 
the State Indian Affairs Committee. In 1986, he became the 
prosecuting attorney for Bannock County, Idaho's fourth-largest 
county that borders the Fort Hall Indian Reservation. He 
demonstrated a continual respect for the tribal sovereignty.
    In 1990, he was elected as Idaho's Attorney General and 
became the first Native American in United States history to 
become elected to statewide office. As Attorney General, he 
supported legislative efforts to protect native religious 
freedom, treaty rights, and other matters impacting tribes. He 
also led efforts to improve State-Tribal relations to the 
Conference of Western Attorneys General. Although he served as 
a State attorney, the door was always open to Idaho tribes.
    I thank the Committee for expediting the consideration of 
Mr. Echo Hawk's nomination and urge the Senate to confirm his 
as quickly as possible, given all the urgent needs in Indian 
Country that on hold pending his confirmation.
    And again, thank you for the opportunity to let me 
introduce Mr. Echo Hawk and I express our support for his 
nomination.
    Thank you.
    [The prepared statement of Mr. Coby follows:]

 Prepared Statement of Hon. Alonzo Coby, Chairman, Fort Hall Business 
                Council for the Shoshone-Bannock Tribes
    Good afternoon Chairman Dorgan, Vice-Chairman Barrasso, Senator 
Crapo, and other Members of the Committee. My name is Alonzo Coby and I 
serve as Chairman of the Fort Hall Business Council, which is the 
governing body of the Shoshone-Bannock Tribes located on the Fort Hall 
Indian Reservation in southeast Idaho. I am honored to be here today to 
introduce and express support for the nomination of Larry Echo Hawk as 
the next Assistant Secretary for Indian Affairs.
    The Shoshone-Bannock Tribes are a federally recognized Indian tribe 
organized under Sections 16 and 17 of the Indian Reorganization Act of 
1934. The Shoshone and Bannock people are comprised of several related 
bands whose aboriginal territories include land in what are now the 
states of Idaho, Wyoming, Utah, Nevada, Colorado, Oregon, and parts of 
Montana and California. In 1867, President Andrew Johnson by Executive 
Order designated the Fort Hall Indian Reservation for various Shoshone 
and Bannock bands that occupied the area since time immemorial. On July 
3, 1868, the Shoshone and Bannock Tribes concluded the Second Treaty of 
Fort Bridger, which was ratified by the United States Senate on 
February 24, 1869. Article 4 of the Fort Bridger treaty reserved the 
Reservation as a ``permanent home'' to the signatory tribes. Although 
the Fort Bridger Treaty called for the Reservation to be approximately 
1.8 million acres, various ``surveying errors'' in 1873 reduced its 
actual size to approximately 1.2 million acres.
    One of the United States' purposes in setting aside the Fort Hall 
Indian Reservation was to protect the Tribes' rights and to preserve 
for them a home where their tribal relations might be enjoyed under 
shelter of authority of the United States. Subsequent cession 
agreements with the United States reduced the Fort Hall Indian 
Reservation to the present day size of 544,000 acres. Of the 544,000 
acres, 97% of the land is Tribal land or held by the United States for 
the benefit of the Tribes or its individual members. The Tribes' 
territory is the largest Reservation in Idaho and forms a large 
cohesive geographic area that supports a population of over 6,000 
people and provides an irreplaceable homeland for economic activity and 
cultural practices based on strong religious traditions premised on the 
sacredness of land. Our current Tribal enrollment is approximately 
5,300 members.
    The Fort Hall Reservation is blessed with an extensive biodiversity 
including rangelands, croplands, forests, streams, three major rivers 
(the Snake, Blackfoot, and Portneuf), reservoirs, springs, and wetland 
areas, an abundance of medicinal and edible plants, wildlife (elk, 
deer, moose, bison, big horn sheep, etc.), various species of fish, 
birds, and other animal life. The Reservation lands are mountainous and 
semi-desert, and overlays the Snake River aquifer, a large groundwater 
resource. The culture and continued existence of the Shoshone and 
Bannock peoples depend on these resources.
    As you know, the United States government and its agencies have an 
important trust relationship with Indian tribes. The Shoshone-Bannock 
Tribes look to the federal government to fulfill this trust 
responsibility in areas of environmental protection, law enforcement, 
health, education, trust reform, land management, protection of treaty 
rights, and other important areas.
    The issues of concern I have mentioned are among many that are 
common to Indian Country. Larry Echo Hawk is uniquely qualified to 
address them as the next Assistant Secretary for Indian Affairs. The 
Shoshone-Bannock Tribes fully support Larry Echo Hawk and have full 
confidence in his strong commitment to Tribal sovereignty and Indian 
interests. I note that other Idaho tribes have also voiced their 
support for Mr. Echo Hawk's nomination.
    Mr. Echo Hawk began representing the Shoshone-Bannock Tribes in 
1977 and served for nearly nine years as the Tribes' chief general 
legal counsel. At that time, he was one of the first Native American 
lawyers entrusted with the responsibility as the primary attorney for a 
large Indian tribe. He provided diligent and faithful service during 
these years. During his time as Tribal Attorney, he also served two 
terms in the Idaho legislature and worked hand-in-hand with Tribal 
leaders in Idaho to advance tribal interests. It was during his time in 
the legislature that positive laws respecting tribal sovereignty were 
passed for the first time in Idaho history, and Mr. Echo Hawk played a 
significant role in their passage. These laws include the State-Tribal 
Relations Act, the Tribal tobacco sales tax exemption, the Indian 
Antiquities and Burial Site Protection Act, and the amendment to the 
State Joint Powers Act to authorize state agencies to enter into 
agreements with Tribal governments, to name a few. Much of this was 
brought about due to Mr. Echo Hawk's efforts to help create a State 
Indian Affairs Committee.
    He ended his position as the Tribes' general legal counsel in 1986 
on good terms with the Tribes to become the prosecuting attorney for 
Bannock County, Idaho's fourth largest county that borders the Fort 
Hall Reservation. While he served as prosecutor, he demonstrated a 
continual respect for tribal sovereignty and jurisdiction by deferring 
cases to the Tribes that could have been prosecuted under Public 280. 
In 1990 he was elected as Idaho's Attorney General, and became the 
first Native American in United States history to be elected to a 
state-wide constitutional political office. As Attorney General, he 
supported legislation and efforts to protect native religious freedoms, 
salmon treaty fishing rights, and other legal matters impacting tribal 
sovereignty. While Attorney General, Mr. Echo Hawk also lead efforts to 
improve state-tribal relations through the Conference of Western 
Attorneys General. Although he served as the State's attorney, the door 
was always open Idaho tribes.
    The Echo Hawk law firm has provided nearly ten years of legal 
services to the Shoshone-Bannock Tribes and continues to provide 
excellent legal services. While we recognize that Mr. Echo Hawk's prior 
service as the Tribes' legal counsel and work with the Echo Hawk law 
firm may require his recusal from working on issues directly relating 
to the Shoshone-Bannock Tribes, we are confident that Mr. Echo Hawk's 
service as Assistant Secretary will be beneficial to all of Indian 
Country.
    In sum, we are proud to support Larry Echo Hawk's nomination as the 
next Assistant Secretary for Indian Affairs. We are confident that he 
will do an outstanding job in continuing his efforts to advance Tribal 
sovereignty and economic self-sufficiency. Thank you for this 
opportunity to introduce Mr. Echo Hawk and express our support for his 
nomination.

    The Chairman. Well, thank you, Mr. Chairman.
    Mr. Echo Hawk, those are very powerful recommendations we 
have heard about you. The more friends one has, the longer the 
Committee hearing takes, and you have a lot of friends 
obviously.
    [Laughter.]
    The Chairman. Let me recognize you for your statement, and 
say at the start of the statement if you have family members 
present that you wish to introduce, please feel free to do that 
at the start of your statement.
    Mr. Echo Hawk, welcome.

        STATEMENT OF LARRY J. ECHO HAWK, NOMINEE TO BE 
         ASSISTANT SECRETARY FOR INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Echo Hawk. Thank you, Mr. Chairman and Vice Chairman 
Barrasso and Members of the Committee.
    I am honored to appear before you today seeking your 
confirmation for my nomination to serve as Assistant Secretary 
for Indian Affairs.
    I have with me today my wife Terry. We have been married 
for more than 40 years. We have six children, five of which are 
here today. Perhaps they could stand: Jenny, Paul, Mark, Matt 
and Emily. Three of these handsome young men are lawyers. Law 
is the family profession.
    And also with me today are three of my siblings: Mary 
Adamson, Lucille Echo Hawk and John Echo Hawk.
    I am proud to say that members of my family have been 
committed advocates for Native American people for many years.
    I am a member of the Pawnee Nation and have been blessed 
with a good education and a broad base of experience that I 
believe qualifies me to serve as the next Assistant Secretary 
for Indian Affairs.
    I was born in Cody, Wyoming while my father worked in the 
oil and gas business. My family eventually settled in 
Farmington, New Mexico and I attended public schools in 
Farmington through high school. Farmington is right across the 
river from the largest Indian reservation in the United States, 
the Navajo Nation.
    I attended Brigham Young University on a football 
scholarship and I think it is worthy of special mention that a 
Federal program known as the Special Scholarship Program in Law 
for American Indians made it possible for me to graduate from 
law school at the University of Utah.
    For 14 years after that graduation, I worked in the 
practice of Indian law, first as a staff attorney for the 
California Indian Legal Services in Northern California, and 
then eventually I relocated back to Utah to start out as a sole 
practitioner. My law practice was focused on representing 
American Indians, and I built that law practice up to a seven-
attorney firm including six Native American lawyers.
    In 1977, my goal was realized of becoming a tribal attorney 
when I was selected by the Shoshone-Bannock Tribes to serve as 
their Chief General Legal Counsel. And I believe that I was one 
of the first Native American lawyers to ever be entrusted with 
the responsibility to represent a large Indian Nation, and I 
appreciate the confidence that they displayed in me.
    As an Indian law practitioner, I learned about the 
challenges facing Native American communities and the complex 
system of laws that affect the lives of people living within 
Indian reservations.
    It was during that time that I served as a senior lawyer 
for the tribe that I was elected to the Idaho House of 
Representatives, and I seized that opportunity to address many 
contentious and complex issues of law relating to water rights, 
civil and criminal jurisdiction, natural resources, wildlife 
management, health and welfare services, taxation, and Tribal-
State relations. I enjoyed those years, and we made progress.
    My full-time work in Indian law, however, concluded in 1986 
when I decided to make a career change. I was appointed as the 
attorney for Idaho's fourth-largest county. That county had 
boundaries that reached inside of the Fort Hall Indian 
Reservation, so for the next four years I served as a 
prosecuting attorney. It was thereafter that I was elected as 
the Attorney General of Idaho and served a four-year term, and 
then for the last 14 years I have worked as a professor of law.
    That is a broad array of experiences that gave me 
management skills, an understanding of political process, and a 
knowledge of Federal Indian law that I think would help me to 
succeed in the broad scope of responsibilities as the Assistant 
Secretary for Indian Affairs if I am confirmed.
    I know I would face a daunting task. The challenges facing 
Native American people are great. It would be my approach as I 
have always felt within my heart, as well as my mind, and the 
study of law has taught me, is to recognize that Native 
American tribes are nations of people entitled to a government-
to-government relationship with the United Stats.
    And the United States carries a very solemn responsibility. 
We call it a trust responsibility to look after the political 
integrity and the welfare of the native nations, to safeguard 
their lands and resources, and to make their homelands 
productive.
    And I know that this Committee is well aware of the 
challenging problems faced by Native Americans and Alaska 
Natives throughout this Country. The ones that I would mention 
very briefly would be economic development, education, and 
public safety in Indian communities.
    As I say that, I remember the many times that I have been 
within Indian reservation communities. In my mind's eye, I can 
see the faces of people, people that I love and care for that 
suffer the effects of poverty and the social ills that flow 
from poverty.
    My family has been blessed with education. I would see it 
as my responsibility to do everything that I can to see that 
every American Indian and Alaska Native youth receives an 
opportunity for a quality education and a good job and economic 
prosperity.
    And I know full well, as a former prosecutor, of the 
terrible problems that exist when crime is high. It affects 
people's lives. We must do something about the violence that 
occurs in Indian Country, about the violence that occurs in the 
lives of Indian women, about the abuse and neglect suffered by 
Indian children, and substance abuse that robs the future 
promise of the next generation.
    I know that this is a difficult job, Chairman Dorgan and 
Members of this Committee, but I pledge to you to work 
tirelessly and faithfully in executing my responsibilities, and 
working together with Members of this Committee to truly make a 
difference in the lives of people in need.
    Thank you very much.
    [The prepared statement and biographical information of Mr. 
Echo Hawk follow:]

   Prepared Statement of Larry J. Echo Hawk, Nominee to be Assistant 
     Secretary for Indian Affairs, U.S. Department of the Interior
Introduction
    Chairman Dorgan, Vice-Chairman Barrasso and Members of the 
Committee, I am honored to appear before you today seeking your 
confirmation of my nomination by President Barack Obama to serve as the 
next Assistant Secretary of Indian Affairs.
    I would like to introduce members of my immediate family who are 
present:

        My wife: Terry.
        Five of my six children: Jenny, Paul, Mark, Matt and Emily.
        And three of my siblings: Mary Adamson, Lucille Echo Hawk, and 
        John Echo Hawk.

    I am proud to say that members of my family have been committed 
advocates for Native American people for many years.
    I am a member of the Pawnee Nation of Oklahoma. The Pawnee people 
originally resided in what is now the state of Nebraska, but in 1874 
they were removed from their homeland and placed on a reservation in 
the Oklahoma Indian Territory.
    I have been blessed with a good education and a broad base of 
experience that I believe qualifies me to serve as the Assistant 
Secretary for Indian Affairs.
    I was born in Cody, Wyoming while my father was working as a land 
surveyor in the oil and gas business. My family settled in Farmington, 
New Mexico and I attended public schools there from first grade through 
high school. Thereafter, I attended Brigham Young University on a 
football scholarship.
    The Special Scholarship Program in Law for American Indians made it 
possible for me to graduate from the University of Utah, College of 
Law, in 1973. For 14 years after graduating from law school I was 
engaged in the practice of Indian law.
    I began by working for impoverished Indian people as a lawyer for 
California Indian Legal Services. I then returned to Salt Lake City, 
Utah and built a private law practice centered upon representation of 
American Indians. In 1977 I was selected by the Shoshone-Bannock Tribes 
to be their Chief General Legal Counsel. I served in that position for 
8\1/2\ years.
    As an Indian law practitioner I learned about the challenges facing 
Native American communities and the complex system of laws that affect 
the lives of people living on Indian reservations. While serving as the 
senior attorney for Idaho's largest Indian tribe, I was elected to the 
Idaho House of Representatives. As a member of the Idaho Legislature I 
seized the opportunity to address contentious and complex issues 
relating to criminal law enforcement, water rights, zoning and land 
use, natural resources, wildlife management, health and welfare 
services, education, taxation and tribal-state governmental relations.
    Although my full-time work in Indian law ended in 1986 when I was 
appointed as the Prosecuting Attorney for Bannock County, Idaho, I 
continued to have some involvement with federal Indian law up to the 
present time. As a Prosecuting Attorney, I addressed civil and criminal 
jurisdictional issues involving tribal, state and federal authorities. 
As Attorney General of Idaho, my office was required to handle 
significant matters involving Indian religious freedom, water rights, 
criminal law enforcement, gaming, environmental regulation, tribal 
civil and criminal jurisdiction, and treaty hunting and fishing rights. 
And, for the past 14 years my teaching load as a Professor of Law has 
included courses on Federal Indian Law, and my scholarly research and 
writing has centered on Indian law topics.
    This broad array of experiences has helped me develop the 
management skills, understanding of political processes, and knowledge 
of federal Indian law I will need to successfully address the broad 
scope of responsibilities of the Assistant Secretary for Indian 
Affairs.
    When I was asked to accept the President's nomination to serve as 
Assistant Secretary of Indian Affairs, I quickly concluded that 
accepting was the right thing to do. If confirmed, I will have an 
opportunity to serve my country in providing a broad measure of 
services to many Indian communities.
Issues
    If confirmed as Assistant Secretary of Indian Affairs, I will face 
a daunting task. The challenges facing American Indians and Alaska 
Natives are great. I highlight the following subjects as a few of the 
areas that will require special attention for the next Assistant 
Secretary for Indian Affairs:
Economic Development
    Many Native American communities are among the poorest segments of 
the population in the United States. As an example, 8 out of 10 poorest 
counties in the United States are within Indian reservations.
    The rate of unemployment of Native Americans is the highest of any 
ethnic group in America. People are alarmed when unemployment rates 
hover around 8% for the general population, but within some areas of 
Indian Country the rate of unemployment is nearly 80%.
    The inclusion of Native Americans within the American Economic 
Recovery and Reinvestment Act is good news. It is vitally important 
that this economic stimulus be implemented quickly and effectively.
    When Indians decide to develop their mineral and energy resources 
on trust lands the Federal Government must act responsibly as trustee, 
but it must avoid unnecessary delay in giving required authorization.
    Gaming has brought much needed revenue to many of the 562 federally 
recognized tribes. Indian gaming has created approximately 670,000 jobs 
and provided $11 billion to federal and state governments. Tribal 
revenue from gaming has been an important source of funding for 
education, health care, law enforcement and other tribal services. If 
confirmed, I will follow the law established by the Indian Gaming 
Regulatory Act and implement its regulatory framework in a reasonable 
manner.
Education
    American Indian and Alaska Native students score significantly 
lower than their peers in reading and math. Native youth also 
experience some of the highest high school dropout rates in the 
country.
    The federally supported Indian education system has responsibility 
for educating 48,000 students at 183 schools. There must be an 
improvement in test scores and dropout rates within this educational 
system. Dilapidated school buildings must be repaired or replaced and 
housing for school teachers must be improved.
    Sustained economic development and prosperity cannot be achieved 
without a well-educated workforce. Education must be improved at all 
levels, including higher education.
Criminal Law Enforcement
    The rate of aggravated assault against American Indians and Alaska 
Natives is roughly twice that of the country as a whole. Violence 
against Indian women and abuse of Indian children continue to be major 
problems. Epidemic methamphetamine use is now occurring in many Indian 
communities.
    More criminal law enforcement officers are needed. Tribal courts 
need adequate funding. Tribal judges, prosecutors and defenders need 
better training. Jurisdictional gaps in the system of criminal law 
enforcement within Indian Country needed to be fixed. United States 
Attorneys need to be more active in prosecuting crime within Indian 
Country.
    If confirmed, I will use my extensive experience in criminal law 
enforcement to fight crime and increase public safety in Native 
American communities. This effort will include consultation with tribal 
leaders and coordination with state and federal law enforcement 
agencies. Additional resources must be made available for police 
officers, judges, prosecutors, defenders, probation officers, courts, 
detention facilities and training.
Trust Reform
    The Cobell litigation has focused attention on the accountability 
for management of trust assets. The Department of the Interior must 
move forward in a responsible manner in the management of trust lands, 
resources, and other assets. Although I will not personally participate 
in the Cobell matter because members of my family have been involved in 
the case, I may participate in general policy matters, including trust 
reform, where it is appropriate and ethical to do so.
Tribal Recognition Process
    The tribal recognition system is not working. The process of 
reviewing and acting upon applications for federal recognition is 
taking too much time. Applicants deserve a clear and timely procedure 
that will yield fair results.
Land-Into-Trust
    The Carcieri v. Kempthorne decision by the United States Supreme 
Court appears to limit the Interior Secretary's authority under the 
1934 Indian Reorganization Act to take lands into trust status on 
behalf of a Tribe that was not under federal jurisdiction when the Act 
was adopted. Many questions have arisen about the impact of this 
decision and about how to best resolve those questions.
Health
    Forty-percent of health care needs of Native Americans are unmet. 
Many basic elements of good health care are lacking in Indian Country: 
doctors, nurses, mental health professionals, addiction counselors, and 
medical equipment and facilities. Native Americans suffer the highest 
rate of Type 2 diabetes in the world. Indian youth are twice as likely 
to commit suicide.
    The Assistant Secretary of Indian Affairs does not have primary 
responsibility for addressing health care needs, but services provided 
by the Bureau of Indian Affairs and Bureau of Indian Education are 
indirectly connected to the provision of vital health care services. 
The Assistant Secretary of Indian Affairs must be mindful and 
supportive of the need to provide quality health care services.
Bureaucratic Inefficiency
    The Bureau of Indian Affairs (BIA) and Bureau of Indian Education 
(BIE) provide services to 562 of Indian tribes. This includes the 
administration and management of 55.7 million acres of land held in 
trust by the United States for American Indians and Alaska Natives. In 
addition to the central offices of the BIA and BIE, there are 12 
regional offices, and 85 agency and field offices.
    The BIA and BIE have been criticized for not efficiently 
administering their responsibilities. Attention must be given to 
identifying areas of delay, mismanagement and neglect. Action must be 
taken to improve the administration of trust responsibilities. There 
must also be assurance that trust responsibilities are administered in 
accordance with high ethical standards.
Other Issues
    Other issues include the need to attain water settlements, 
protection of Indian sacred sites and culture, and adequate housing.
Conclusion
    If confirmed, I pledge to work cooperatively with the Senate Indian 
Affairs Committee in addressing important issues that affect the lives 
of American Indians and Alaska Natives. I will reach out to leaders of 
tribal governments and listen carefully to their concerns and 
recommendations. Furthermore, I pledge to work tirelessly and 
faithfully in executing my duties and responsibilities. I am confident 
that working together we can make significant progress in improving the 
quality of life for all Native Americans and honor the solemn 
commitments of the United States of America. I respectfully ask the 
members of the Senate Indian Affairs Committee to vote to confirm my 
nomination as Assistant Secretary of Indian Affairs.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    The Chairman. Mr. Echo Hawk, thank you very much.
    Before we begin questioning, and I will call on Senator 
Barrasso for the first questions and I will defer to the end, 
Senator Udall has come late because of another engagement, and 
he is a personal friend of Mr. Echo Hawk, and asked consent to 
make a statement. So let me call on Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Dorgan.
    I was in the Chair from one to three, and I asked my cousin 
Mark, who was behind me, to come 15 minutes early so I could 
make it to your Committee. So thank you very much.
    Before I talk about why Larry Echo Hawk is so qualified for 
this position, I want to say a few quick words about how 
committed he is to this job.
    Larry is a law professor and many of you know that is a 
pretty nice job. More importantly, as a former BYU quarterback, 
Larry was named to be a faculty member who oversees the BYU 
Athletics Department. So what I am saying is rather than 
spending his days being worshiped by law students, publishing 
groundbreaking articles, and watching college football games 
from the 50-yard line, Larry has chosen to serve his Country in 
the Interior Department. If that is not commitment, I don't 
know what is.
    [Laughter.]
    Senator Udall. We are very lucky that Larry is so committed 
to this position because I can think of nobody who is better 
suited for it. Larry's resume speaks for itself, but Larry is 
more than a very accomplished lawyer and public servant. He is 
a deep and innovative thinker.
    Larry grew up in Farmington, New Mexico, but I first got to 
know him when we were both elected State Attorneys General in 
1990. And at the time, Larry was the first Native American to 
be elected to a statewide constitutional office anywhere in the 
United States.
    And Larry's path-breaking did not stop there. Shortly after 
his election, he began to spread what at the time was a very 
new idea: conflicts with tribes should not be settled in court. 
Back then, State A.G.s were in court with tribes all the time. 
Nobody won those cases because the bad blood on both sides 
turned any outcome into a defeat. Larry was the first to say we 
can do better, and he was right. And I followed Larry's advice, 
and as a result New Mexico's relationship with our tribes was 
more productive for everybody involved.
    At BIA, we need somebody who can work with tribal 
governments and tribal members with an attitude of respect, and 
we need somebody who combines a deep knowledge of Indian issues 
with the compassion that comes from common experience and 
common culture. We need a great mind connected to a great 
heart.
    In short, we need Larry Echo Hawk and I hope the Members of 
this Committee will join me in supporting his nomination to 
this important post.
    Good to see you here today, Larry, and I am happy to stay 
here for the questioning.
    Thank you for your courtesies, Chairman Dorgan.
    The Chairman. Senator Udall, thank you very much.
    Senator Barrasso?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you very much, Mr. Chairman.
    And congratulations, Mr. Echo Hawk. Congratulations to your 
wonderful family. It is so good to have your wife here, the 
children, your siblings, and thank you for taking the time 
earlier today to come and visit with me. After that visit and 
after hearing your incredible testimony, I think that clearly 
you are the person for the job.
    I appreciate your willingness to take on these many 
challenges that face the next Assistant Secretary, because this 
is a job that is by no means one that is easy, and I think you 
recognize that completely. Whoever holds it will come to know 
the true meaning of the word challenge.
    It is a very important job, and I think that you really can 
bring the intensity and the knowledge, as well as the 
commitment and the ability to do the job well.
    Incredible responsibility. You are going to be managing 
9,300 employees within the Department of Interior's Bureau of 
Indian Affairs. The position is responsible for an extensive 
portfolio of activities and programs. The keys are what you 
just mentioned: education, housing, law enforcement, land 
management, economic development. These areas form the 
essential components of any healthy community, including all of 
the communities on reservations.
    One of your articles from a few years ago recognized the 
interrelationship of many of these components. You observed 
that without certain basic components, serious risk factors can 
develop and threaten the future of Indian communities. Those 
risk factors include poverty, unemployment, family stresses, 
violence, substance abuse, crime, things we talked about 
earlier today.
    Those factors today are all far too prevalent in many 
Indian communities. I know you understand the situation. I know 
it from your testimony. I know it from your life history. I 
know it from our earlier visits. And you understand that these 
are not simply statistics. They are not academic concepts. 
These are the lives of people. And your voice actually slowed 
down as I think you could actually visualize and see people 
whose lives you now have been impacted as a result of all of 
these factors.
    So the job that you have been nominated for to me is more 
challenging than it has ever been before and maybe more 
challenging than anything else you have ever undertaken before. 
Your background in prosecution, in law enforcement, in Indian 
policy are going to serve you very well in this position.
    Your background will help you coordinate BIA law 
enforcement activities with other Federal agencies, as well as 
with State and tribal and local law enforcement.
    On the Wind River Reservation in Wyoming, as in many Indian 
communities, we are seeing high amounts of crime. As a surgeon, 
I have seen it directly in patients that I have operated on and 
you have seen it in your past history. We have a police force 
that would struggle to meet the needs of a community even half 
its size. We talked about that earlier today.
    Just this weekend, Fox News reported on law enforcement 
actions by the Navajo Nation. The efforts focus on stemming 
violence fueled by drugs, fueled by alcohol. These stories are 
prominent across the Country in Indian communities, and to you 
it is unacceptable and to all of us it is unacceptable. We need 
to do better.
    Indian communities struggle to build the components of a 
healthy life, yet they can't depend on basic safety and basic 
security today. So I hope you will be able to address these 
needs aggressively, and not just in Wyoming, but nationwide.
    There are also the problems that we have dealt with in this 
community of management. If confirmed by the Senate, I suggest 
that you thoroughly examine the agency under your command. I am 
sure that most BIA employees are diligent, hard-working, and 
dedicated to their jobs. I know that by and large BIA employees 
provide outstanding service to Indian people. But this 
Committee has received more than just a few complaints about 
inefficiencies and waste within the agency. So I hope that you 
make this efficiency and accountability issue within the BIA's 
integral parts.
    And I will just submit a couple of things that we have 
talked about in writing so you can further explain it. There is 
one specific issue in Wyoming, and I brought it up in the 
Committee in the past, and it has to do with the Wind River 
Reservation and irrigation. You may be aware that improvements 
to the Wind River Reservation irrigation system have been 
ongoing for some time. Congress actually appropriated money for 
the project in 2006, 2007, with matching funds from the State 
of Wyoming.
    Yet the progress on the repairs has been extremely slow. 
And it is not just in Wyoming. We have heard repeated stories 
of this around the Country. Always a lot of contributing 
factors, but the Bureau of Indian Affairs is one of those 
contributing to the delays.
    So I have been asking the department to look into this 
matter since May of 2008, and we just got a response this week. 
I am told that these four projects are ready for implementation 
and if confirmed I would ask that you personally look in to 
this matter and ensure that the work will be undertaken 
promptly this year.
    You are shaking your head yes, and I will take that as an 
affirmative.
    [Laughter.]
    Mr. Echo Hawk. Senator Barrasso, thank you very much for 
bringing those matters to my attention. Since I have never 
worked within the Federal Government, I don't have first-hand 
knowledge about these sort of problems, but I have heard about 
those problems and I would simply commit and pledge to you and 
to the other Members of this Committee that I will do the very 
best that I can to be diligent in making sure that we do not 
have mismanagement and unnecessary delay in the important 
responsibilities that are assigned to us.
    Senator Barrasso. And another one of those is law 
enforcement. As we have discussed, we have only two officers on 
patrol in Wyoming on the Wind River Reservation patrolling 
about two million acres of territory. And that is not a unique 
situation.
    So if confirmed, will you make adequate law enforcement 
staffing levels throughout Indian Country one of your high 
priorities?
    Mr. Echo Hawk. Senator Barrasso, this may be the area where 
I can offer the greatest assistance based upon my experience 
base in criminal law enforcement. I have a special interest, 
experience. I teach in that area. And from my prior comments, I 
think you know how strongly I feel about the impact of lack of 
law enforcement is having on the lives of people. And I would 
look forward to working with you and other Members of this 
Committee to seriously address the deficiencies that are 
occurring in our Native American communities when it comes to 
crime.
    Senator Barrasso. And finally, we have talked a little bit 
about economic development. And the Chairman may ask additional 
questions on energy development, because there is a wealth of 
energy resources on Indian land, but development appears not to 
be moving for a number of different reasons.
    And if confirmed, are there things that you think you can 
do to help improve implementation of energy programs and 
address the barriers, things that are inhibiting the energy 
development on Indian lands?
    Mr. Echo Hawk. Senator Barrasso, I will pledge to you that 
I will do my best to make sure that the process moves forward 
in an appropriate and timely manner. I would recognize that the 
Department of Interior has responsibilities to meet since they 
are the trustee over lands and resources. There is an important 
function to perform, but it is intolerable to have unnecessary 
delay. When tribal leaders make decisions to use their 
resources to spark their economies, bring revenues and create 
jobs, then I think the Federal Government has a responsibility 
to move forward responsibly, but quickly, to make those 
developments occur.
    Senator Barrasso. Thank you, Mr. Echo Hawk.
    And thank you, Mr. Chairman.
    The Chairman. Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I want to welcome you, Larry. I appreciate the stop by my 
office you did the other day.
    I also want to welcome your family. I know that you don't 
get to the position you are in without solid support from the 
people around you and I want to thank not only you, but your 
family for being here today and the support they have given you 
to get to this position.
    I guess we will get to the most important thing first, and 
I visited with you a little bit about this in my office. But I 
think it is critically important that the person in this 
position get out to see as many areas of Indian Country as 
possible in the United States. I would be more than happy to 
help you in that regard with a visit to Montana. Would you be 
willing to come out and see us?
    Mr. Echo Hawk. Senator Tester, I would very much like to 
visit and learn more about your State and those Native American 
communities there.
    Senator Tester. I think your opening statement really 
described many, if not all, the issues that we face in Montana 
and for the most part throughout the Country.
    On a couple of issues that are more local in nature, we 
have the Cobell suit and we have recognition of the Little 
Shell Tribe. In both of those issues, for reasons you don't 
have to go into, but you have chosen to recuse yourself, and I 
quite frankly appreciate that. But your staff or hopefully soon 
to be your staff has indicated they can't make a decision on 
either one of those until you are in charge, or somebody is in 
charge in that position.
    How is it going to be handled? How is Cobell going to be 
handled if you recuse yourself and the staff says now we have 
to have this guy here, and the same thing with the Little 
Shell?
    Mr. Echo Hawk. Senator Tester, I have worked carefully and 
closely with ethics officers in the Department of Interior, and 
a recusal agreement has been drawn up and I have signed that, 
and I will honor the provisions of that recusal document, which 
means that there are certain cases and issues that I cannot 
personally be involved in.
    But I commit to you and to the Members of this Committee 
that if confirmed I will make sure that there is a clearly 
identified person, in all likelihood the Principal Deputy in 
the Office of the Assistant Secretary for Indian Affairs, who 
will have responsibility to make decisions and move those 
issues forward.
    Senator Tester. Thank you for that. I can tell you that in 
both, in both, timeliness is an issue. And I will tell you 
especially in the Little Shell. They have been at it for 31 
years. They need to get a decision and I appreciate the fact 
that you will be pushing that forward.
    Budgets, have you had an opportunity to look at the budget 
at all? And if you have, what is your opinion of it? I am 
talking about your budget, not the overall budget, the budget 
for your department.
    Mr. Echo Hawk. Senator Tester, I have not had the 
opportunity to examine carefully the budget for the office, but 
I would commit to you, Senator Tester, and the other Members of 
this Committee that I will be an advocate for the needs of 
native communities in various things that we have talked about. 
I served during my time in the Idaho legislature on the 
Appropriations Committee. I know about the appropriations 
process. I don't know all of the details about the Federal 
process. I know that I can be a person that advocates and 
recommends certain funding levels for particular matters, but I 
know that I will not have the final say, but I commit to you 
that I will definitely identify what the needs are and push for 
proper funding.
    Senator Tester. Can you tell me very briefly, if you could, 
you are going to be pushing the budget out to probably 
Secretary Salazar, or whatever the chain of command is. Can you 
tell me what your priorities in that budget would be, just from 
your inner soul, what they would be? From what you know, what 
would they be?
    Mr. Echo Hawk. Senator Tester, I feel like I am just 
beginning to learn about the important responsibilities that I 
have to do, but I know what the key issues are within my heart 
and soul. And education of American Indian and Alaska Native 
youth are very, very important to me. Public safety in Indian 
communities are very important to me. Creating jobs are very 
important to me.
    And so those will be some of the priorities that I push for 
if I am confirmed as Assistant Secretary. There will, of 
course, be other important things that affect the lives of and 
the economies, particularly in the west, like water 
settlements, but I just wanted to mention some of the things 
that I know immediately will be very important.
    Senator Tester. Okay. Well, just in closing real quick, I 
think you are a quality individual. I hope you are confirmed. I 
hope you are confirmed very, very soon, because I think this 
department needs a leader, and I think you fit those 
qualifications.
    You told me when you were in my office that you weren't a 
bureaucrat, and I think that fits this job's needs very, very 
well. Thank you very much for being here.
    The Chairman. Senator Tester, thank you very much.
    Senator Crapo?
    Senator Crapo. I pass.
    The Chairman. Senator McCain, do you have questions?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Welcome and thank you for all the hard work 
you have done for many years on behalf of Native Americans. It 
has been a great pleasure to have had the opportunity to work 
with you on various issues.
    One of the issues that you worked with us on is the issue 
of Indian gaming. It is a tough issue. It is very controversial 
throughout the Country. It is one that has plagued us ever 
since we enacted the Indian Gaming Act a long time ago.
    So I have several questions for you on this issue. Do you 
believe that IGRA, the Indian Gaming Regulatory Commission, has 
sufficient authority to do its job?
    Mr. Echo Hawk. Senator McCain, in the process of teaching 
Federal Indian law, one of the chapters that we cover is on 
Indian gaming. I feel fairly comfortable that I know the very 
basics of what that law, regulatory system is. When the United 
States Supreme Court back in the mid-1980s decided the Cabazon 
case that opened up this area to Indian tribes, and of course 
to Congress very soon after, I believe it was in 1988, passed 
the statutory law.
    I welcomed that. I thought that the Congress got it about 
right in a very difficult situation. That, of course, has 
jumped forward far from that point. I do not feel like I know 
presently all of the details about how Indian gaming operates. 
I understand I will have some responsibilities in that area, 
but I look forward to working with you and other concerned 
Senators to get up to speed, to learn what I have to, and make 
sure that it is properly regulated.
    Senator McCain. I have to say with respect that is not a 
very good answer, sir. You should know that this is a huge 
issue. You have been involved in Native American issues for 
many, many years. That is why you are being nominated for this 
position.
    Now, there was a decision concerning the Colorado River 
Indian tribes which basically dramatically reduced the 
authority of the Indian Regulatory Gaming Commission. That is 
why I asked you this question. I will expect some answers 
before I vote for your confirmation.
    I have to deal with this issue regularly, regularly, as we 
see for example Native American tribes going into an area that 
is off-reservation and purchase that land in order to use it 
for purposes of Indian gaming. This happens all the time. It 
happens in Arizona. It happens all over the Country.
    Now, I am sure you must be aware of that situation. Are 
you?
    Mr. Echo Hawk. Senator McCain, the particular situation 
that you mention, I am not aware of.
    Senator McCain. You are not familiar that this is going on 
in America?
    Mr. Echo Hawk. I am of course aware of Indian gaming laws, 
as I said in my initial response. It is a part of what I teach, 
but it is something that we cover in one day. I am not a gaming 
attorney. I have not been able to penetrate all of the details 
of Indian gaming law.
    I have had some experience when I served as Attorney 
General as the Indian Gaming Regulatory Act was just starting 
to get going. And frankly, found myself in a very difficult 
situation as a State Attorney General in representing the State 
and being on the other side of the table from American Indian 
tribes in my own State.
    So I know the contentious nature of it, of the issue. And I 
executed my duty as the State Attorney General. It was very 
difficult for me personally, but I did my duty.
    Senator McCain. Well, I say again with respect, sir, 
teaching Indian law certainly makes one aware that the Cabazon 
decision was one of the landmark decisions regarding Indian 
Country in a long time. The repercussions of that was the 
Indian Gaming Act, IGRA, the appointment of the Indian Gaming 
Regulatory Commission. The Colorado River decision, all of 
those are Indian law, which I take it that you taught. These 
have had a huge impact on revenues to tribes, revenue-sharing 
agreements between Governors.
    So it is going to be a very important issue for you to 
address. And frankly, your answer to me that you know about 
these things is not sufficient and I hope that you will 
certainly go back and look at the Indian law that has been 
effected and its effect on Indian gaming, and come back and 
give me some answers, because that issue will be before this 
Committee. It will be before the Congress of the United States, 
so it is very important to me. So I hope you will take that 
seriously.
    And along with that question that I have for you, do you 
believe that Class III Indian gaming should be, that there is a 
need to better regulate Class III Indian gaming?
    I guess I would be very interested in your views about 
Indian Health Service achieving much more ability to self-
govern. The Chairman and I and others have tried to get through 
legislation to give the tribes much more authority over their 
own health services. Do you have a view on that issue?
    Mr. Echo Hawk. Senator McCain, of course, I feel like there 
are great needs in the area of Indian health care. And I 
certainly respect the sovereign authority of Indian tribes. I 
do not consider myself to be an expert in the management and 
delivery of health services.
    I know that that primary responsibility is in the Indian 
Health Service. We would be indirectly involved, both in the 
Bureau of Indian Affairs and Bureau of Indian Education, but 
the bottom line for me would be that the important thing is to 
improve health care in Indian communities. And if there is a 
better way of accomplishing that, I would be all for that.
    I am not immersed in the issue well enough to be able to 
say what that pathway is. I have an open mind. I don't think it 
is going to be my decision about that, but perhaps I would be 
involved in some discussions in that direction.
    Senator McCain. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Udall?
    Senator Udall. Thank you, Chairman Dorgan.
    General Echo Hawk, as you are no doubt aware, Secretary 
Salazar has recently created a Youth Office in the Department 
of Interior, and I applaud that effort. His goal is to have a 
large number of youth serving on public lands. Representative 
Grijalva of Arizona has introduced H.R. 1612 in the House to 
help accomplish that goal by enrolling youth in service and 
youth in service in conservation corps so that programs can 
help young people benefit from that experience.
    And I want to work with you to make sure that Native 
American youth benefit from these initiatives. So what I 
propose is that Native American young people work on native 
lands on projects that their tribes and communities determine 
to be important and set as their priorities. This is native 
communities, native youth setting priorities on their land.
    And we have put in a proposal. We are working with 
Representative Grijalva on that, and I am wondering will you 
and the Secretary work with me to ensure that Native Americans 
have opportunities to work and serve in their own tribes and 
communities on their prioritized projects, as well as to work 
on public lands and the Federal agencies?
    Mr. Echo Hawk. Senator Udall, I commend you for your 
interest and efforts in that regard. I have just heard bits and 
pieces about these plans. I would commit to you to work with 
you and learn more about that and hopefully be as supportive as 
I can for the efforts. But I am not familiar with the details 
of those efforts at this time.
    Senator Udall. Thank you, General Echo Hawk.
    When Senator Tester asked you the question, what are the 
priorities, one of those you mentioned was education. And the 
Bureau of Indian Affairs, as you are no doubt aware, runs one 
of the biggest school systems in the Country. I believe 50,000 
students. So you have the opportunity in your position to 
impact education in a dramatic way for native youngsters.
    And I hope that one of your top priorities is focusing on 
how that education is delivered in Indian Country because we 
have 22 tribes in New Mexico. We have many of these BIA 
schools. I frequently run into parents, to those that are 
involved with the schools. And they say the reform we are 
seeing across the education system needs to also happen at BIA.
    And I think there is a real opportunity for you to 
participate in that. And this 50,000-person school system is 
there. It is operating. It has the ability to deliver quality 
education for these young people and to do better and better 
every day.
    I think one of the things we are trying to now do with 
education is build in the idea that we are going to improve 
every day. That we are going to use a model that says that all 
of the folks that are involved with education, be it a teacher 
or a principal or an administrator, any type of school 
employee, that we get up and we do a better job for our kids 
every day.
    So I am really not asking in a way for an answer here, but 
I think that that is just so important and it could set an 
example across Indian Country I think of where we need to go on 
the education front.
    One other question that I would like to throw at you is, as 
you know, there is a huge backlog on construction throughout 
the Department of Interior on tribal programs. Whether it is in 
school construction or road construction or some of the other 
areas, I think the backlogs are so big. We are talking billions 
of dollars of backlog at the Department of Interior in these 
areas.
    One of the things that we could do that would really, I 
think, make a difference is come up with a plan to wipe out 
those backlogs. We are not going to be able to do it in a year 
or two years. I am reminded of what Secretary Babbitt did when 
he traveled across the Country and learned about the backlogs, 
and I think he came up with a four-year plan. He laid it out in 
that four-year plan. He said we are going to wipe out these 
backlogs. We are going to get up to date, and we are going to 
commit ourselves to that.
    So I hope that one of the things you do when you get in 
there is take stock of where you are, because I think you are 
going to run into many folks coming to you and saying, we have 
a problem here, a problem there. And you analyze all these and 
realize that there are these big backlogs out there. And there 
needs to be from your level and the Secretary's level and the 
presidential level of saying, as we have heard before in this 
Committee, and I think the Chairman has called several hearings 
to highlight this, we almost need a Marshall Plan for dealing 
with these issues in Indian Country.
    So it is kind of a big amorphous question, but anyway go 
ahead please.
    Mr. Echo Hawk. Senator Udall, thank you for pointing this 
out and I appreciate your concern. I have heard something about 
this, but of course having not worked in the department 
previously, I am not fully aware of this. But I would pledge to 
you that I will find out and see what I can do to make sure 
that we address any backlog problems.
    Senator Udall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Udall, thank you very much.
    Mr. Echo Hawk, let me make a couple of comments, and then 
you may respond if you wish.
    The priorities are quite clear. Law enforcement, we have 
talked about that. I think you are going to bring a lot to this 
job as we work to try to deal with law enforcement. Your 
background brings an enormous amount, perhaps more than any we 
have ever seen of someone who comes into this job on the law 
enforcement side. So I appreciate that.
    Health care, that is Indian Health Service, but you will 
have some coordination there. Education, housing, all of those 
are very important, and then the issue, as you described, 
economic development, trying to find ways to provide jobs 
because there is no social program as important as a good job 
that pays well. That makes almost everything else possible in 
terms of caring for your family and meeting the daily needs and 
so on.
    So I think that you will bring a lot to this. It is 
understandable that when you show up at this table, not having 
sat in the Interior Department as Assistant Secretary for 
Indian Affairs, that you don't know all of the nuances of all 
of the issues, but you will, and that will your responsibility.
    I want to talk to you just for a moment about the issue of 
gaming, because you can tell the former Chairman of this 
Committee, Senator McCain, feels very strongly, as do others. 
The Cabazon decision opened up opportunities for Indian gaming. 
My guess is that most tribes, having the opportunity to provide 
gaming and provide revenue for their tribal members from 
gaming, would very much like to put a casino in downtown 
Manhattan, somewhere near Times Square, right? If they had the 
opportunity? You want to do gaming where there is a stream of 
people with some income that is going to maximize the potential 
of gaming.
    But I don't look favorably on what is called off-
reservation gaming, where tribes generally shop for somewhere 
closer to a metropolitan area to put a casino in. I personally 
am not very accommodating to that. Off-reservation gaming, if 
given a green light, every tribe in the Country would love to 
do that, find a place near a big city and put the casino up.
    So Senator McCain's concern about those things matches 
concerns of others of us as well with respect to the issue of 
land into trust for gaming purposes, et cetera. This is about a 
$26 billion industry and growing, Indian gaming. It is very 
important for the capability to continue that that there be 
effective regulation.
    We have a lot of history with respect to regulatory 
difficulties with gaming. I am not talking about on Indian 
reservations. I am just talking about the areas and spots in 
this Country where for decades there have been gaming interests 
that wish to find ways to engage themselves in gaming in a 
rather untoward way.
    So there are issues that relate to the National Indian 
Gaming Commission. It relates to IGRA the underlying law. It 
relates to the Colorado River decision in which they said the 
National Indian Gaming Commission cannot take a look at and 
regulate Class III gaming. And that being the case, there are 
some circumstances in this Country where the only regulatory 
authority that exists of any means is the tribal authority 
itself because there are some States who, although they claim 
because of their compact, have regulatory capability, probably 
have a part-time person or one or one and a half part-time 
people. That is not effective regulation.
    So the National Indian Gaming Commission raises important 
questions, and we have had many hearings on them when Senator 
McCain was Chairman. And but for time issues, we would have had 
hearings on them in the last Congress, but I decided to try to 
use all of our resources to get an Indian Health Care 
Improvement Act out of the United States Senate. We did for the 
first time in 17 years in the United States Senate get a bill 
out of here, and regrettably one of our colleagues stuck an 
abortion amendment on it, which meant that it was killed in the 
U.S. House.
    But the only point of my saying this to you is the points 
that Senator McCain raised are not irrelevant points at all, 
and not just harbored by himself. I mean, there are issues here 
with respect to Indian gaming that this Committee will explore 
and we will need to explore it with your capability of studying 
it, understanding it, and giving us some guidance, and working 
with us and the National Indian Gaming Commission.
    And so I just wanted to make that point because the former 
Chairman I know feels strongly about it, but he is not alone. 
There are many of us. We very much want Indian gaming to be 
successful, and it certainly is. It has increased the revenue. 
Increased opportunities for many Indian tribes to provide a 
stream of income for their members, and that is important.
    But like every other area of endeavor, there needs to be 
effective regulatory capability. Some tribes have extraordinary 
regulatory regimes, and I am enormously impressed. Some not 
quite so impressive. And some States have really good 
regulatory capabilities and hire a lot of people to do it. Some 
States not so much. So this Committee will always continue to 
be interested in that.
    But having said that, you will likely get questions from 
Senator McCain and I am going to send you some additional 
questions as well. You will want to answer those questions as 
quickly as you can. And we don't expect you to know all of the 
nuances of all of these issues because they have been around 
for a long time. But my hope is you will answer those questions 
as completely as you can, get them back to us as quickly as you 
can, and it is my intention to try very hard to move this 
nomination with speed.
    I would like very much for this Committee to approve your 
nomination at our business meeting next Thursday. My hope would 
be that very shortly thereafter, perhaps by the end of next 
week following this Committee action, that we could get 
unanimous consent for your nomination through the United States 
Senate.
    Again, with four of the last eight years having no one 
running the BIA who has been appointed or nominated by a 
president and confirmed by a Congress, I think it is 
disgraceful, four of eight years. I mean, we have 500 Indian 
tribes in this Country and we have made all kinds of 
commitments and promises and agreements and have all these 
trust responsibilities, and the fact is nobody seems to care 
very much whether any of them are kept.
    We need a BIA that works. We need someone that is there to 
run it, that we can be proud of their work. And I think you are 
the person, Mr. Echo Hawk. I have that kind of confidence. I 
know my colleague from New Mexico and colleagues from Idaho and 
Utah and Wyoming and others do as well.
    So I look forward to working with you, and I believe that 
you will be confirmed and I intend to work with all of my 
colleagues to try to make that happen as soon as possible.
    Let me ask if you have any concluding statements.
    Mr. Echo Hawk. Mr. Chairman, I just appreciate the 
opportunity to appear before this Committee, and would hope 
that I would be confirmed soon to take on these important 
responsibilities. Thank you.
    The Chairman. And finally, let me say thanks for bringing 
your family. I suspect they are justifiably proud of their 
husband and father and sibling, and all of us wish you well.
    This hearing is adjourned.
    [Whereupon, at 3:20 p.m., the Committee was adjourned.]
                            A P P E N D I X
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                           Larry J. Echo Hawk
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Response to Written Questions Submitted by Hon. John Barrasso to 
                           Larry J. Echo Hawk
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
                           Larry J. Echo Hawk
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Larry J. Echo Hawk
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Response to Written Questions Submitted by Hon. Tom Coburn, M.D. to 
                           Larry J. Echo Hawk
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Response to Written Questions Submitted by Hon. John McCain to 
                           Larry J. Echo Hawk
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Response to Written Questions Submitted by Hon. Jon Tester to 
                           Larry J. Echo Hawk
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Larry J. Echo Hawk
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Response to Written Questions Submitted by Hon. Dianne Feinstein to 
                           Larry J. Echo Hawk
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                  <all>

</pre></body></html>
